              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Internal Controls Over Classified Computers
and Classified Removable Media at the
Lawrence Livermore National Laboratory




DOE/IG-0628                                          December 2003
INTERNAL CONTROLS OVER CLASSIFIED COMPUTERS AND
CLASSIFIED REMOVABLE MEDIA AT THE LAWRENCE
LIVERMORE NATIONAL LABORATORY


TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective          1

              Observations and Conclusions        2


              DETAILS OF FINDINGS

              NEST Equipment                      3

              Transferred Classified Computers    3

              Classified Removable Media          4


              RECOMMENDATIONS                     5


              MANAGEMENT COMMENTS                 5


              INSPECTOR COMMENTS                  5


              APPENDICES

              A. Scope and Methodology            6

              B. Management Comments              7
Overview

INTRODUCTION    Computers are used extensively in the full range of operations at
AND OBJECTIVE   Lawrence Livermore National Laboratory (Livermore), including
                processing classified national security information. Livermore
                reported an inventory of 86 classified laptop computers and 1,141
                classified desktop computers as of March 2003. In addition,
                Livermore reported approximately 15,000 pieces of classified
                removable media. Department of Energy (DOE) policy requires
                strict inventory controls over classified computers and classified
                removable media.

                The objective of this inspection was to determine the adequacy of
                internal controls over the accountability of classified computers
                and classified computer removable media at Livermore. This
                inspection complements similar work performed at Los Alamos
                National Laboratory, “Interim Inspection Report on Inspection of
                Internal Controls Over Personal Computers at Los Alamos
                National Laboratory” (DOE/IG-0597, April 2003); the Savannah
                River Site, “Inspection of Internal Controls Over Laptop and
                Desktop Computers at the Savannah River Site” (INS-L-03-09,
                July 29, 2003); and other laboratories, “Management of Sensitive
                Equipment at Selected Locations” (DOE/IG-0606, June 2003). It
                also complements our recent inspection of Livermore’s internal
                controls over firearms, “Firearms Internal Controls at the
                Lawrence Livermore National Laboratory (DOE/IG-0621,
                September 2003).




Page 1                         Internal Controls Over Classified Computers
                               and Classified Removable Media at the
                               Lawrence Livermore National Laboratory
OBSERVATIONS      We were able to account for each of the 86 classified laptop
AND CONCLUSIONS   computers listed in Livermore’s property inventory, as well as the
                  272 classified desktop computers and 200 classified removable hard
                  drives we selected for sampling. Despite this, we determined that
                  there were significant inadequacies in the internal controls over
                  classified computers and classified removable media at Livermore.

                  Specifically, we found that:

                  • Classified National Nuclear Security Administration (NNSA)
                    Nuclear Emergency Search Team (NEST) computer equipment
                    and removable media were not subjected to required inventories;

                  • Six classified desktop computers that were shipped permanently
                    to other DOE sites and organizations remained in Livermore’s
                    property inventory; and

                  • A classified removable hard drive was not entered into
                    Livermore’s tracking and accounting system for classified
                    removable media, as required.

                  Because of the security implications, during our inspection we
                  alerted Livermore officials to our findings, so appropriate
                  corrective actions could be initiated immediately.




Page 2                                            Observations and Conclusions
Details of Findings

NEST                               We found that classified NEST computer equipment and
EQUIPMENT                          removable media were not subjected to required inventories. DOE
                                   policy presented in the “Classified Matter Protection and Control
                                   Manual” requires that NEST classified computer equipment and
                                   related media undergo a complete inventory at least once a month by
                                   two individuals. Based on historical events and the clear vulnerability
                                   of classified computer equipment and media, such exceptional
                                   inventory requirements are an essential component of the
                                   Department’s effort to ensure national security. However, we
                                   identified three pieces of NEST classified computer equipment and
                                   five classified removable media that were not being inventoried on a
                                   monthly basis by two individuals; rather, inventories were conducted
                                   intermittently at longer intervals by one person. Additionally, we
                                   identified two NEST classified removable media that were being
                                   inventoried on an annual basis, but not on a monthly basis as required.
                                   Reportedly, these media did not contain sensitive information. A
                                   Livermore official responsible for the NEST equipment advised that
                                   he was unaware of the DOE inventory requirements.

TRANSFERRED                        We found that six classified desktop computers that were shipped
CLASSIFIED                         permanently to other DOE sites and organizations remained in
COMPUTERS                          Livermore’s property inventory. The six classified desktop computers
                                   were sent to other DOE sites and organizations one or more years ago
                                   under the DOE Secure Communications and Teleconferencing1
                                   (SCAT) project. Details on the computers’ locations and dates of
                                   shipment are as follows:

                                            Type                   DOE Location              Date Shipped
                                      Desktop Computer            Bechtel, Andrews             7/29/99
                                                                       AFB, MD
                                      Desktop Computer               Pantex Plant,               8/23/99
                                                                    Amarillo, TX
                                      Desktop Computer                  ORISE,                  10/25/00
                                                                  Kirtland AFB, NM
                                      Desktop Computer                   DOE,                   12/12/00
                                                                      Wash., DC
                                      Desktop Computer             Savannah River                1/24/01
                                                                   Site Office, GA
                                      Desktop Computer             Yarrow, Assoc.,              10/25/01
                                                                     Fairfax, VA


1
  The SCAT system is used for crisis and routine communication by DOE, the Department of Homeland Security,
and other emergency response organizations. Livermore is responsible for the acquisition and transfer of all SCAT
computers to DOE sites and organizations in the SCAT program.


Page 3                                                                                    Details of Findings
             We were advised that the transfer of ownership for the six
             computers was not completed in a timely manner because the
             property representative responsible for the transfer had overlooked
             the requirement. A Livermore official said that action was being
             taken to transfer ownership of the six classified computers to the
             appropriate DOE sites and organization.

CLASSIFIED   We found that a classified removable hard drive was not entered
REMOVABLE    into Livermore’s tracking and accounting system for classified
MEDIA        removable media. We accounted for each of the 200 classified
             removable hard drives in our judgmental sample of the 2,309
             classified removable hard drives listed in Livermore’s tracking and
             accounting system. However, during our sampling of the classified
             removable hard drives, we identified a classified removable hard
             drive that was not entered into Livermore’s tracking and
             accounting system. We were advised that the reason for this was
             an oversight by a Livermore employee. The exclusion of any
             classified media from the Laboratory’s tracking system, regardless
             of the underlying cause, has serious implications for the security
             and accountability of highly sensitive materials.

             Livermore officials informed us that they took immediate action to
             correct this condition. Livermore officials advised that they
             entered the classified hard drive into Livermore’s tracking and
             accounting system. Livermore officials also advised that they
             conducted a physical inventory of all classified removable hard
             drives and that all other media was being tracked and accounted
             for. Further, Livermore officials advised that Livermore published
             a “Lessons Learned” bulletin reminding all employees that all
             “classified removable electronic media” are accountable and must
             be tracked in Livermore’s tracking and accounting system for
             classified removable media.




Page 4                                                         Details of Findings
RECOMMENDATIONS   Livermore’s failure to adequately enforce inventory and
                  accountability requirements for classified items increases the
                  vulnerability of classified computers and media, including critical
                  NEST equipment, to loss, abuse, and theft. Therefore, we
                  recommend that the Manager, Livermore Site Office, ensure that:

                  1. All NEST classified computer equipment and removable media
                     are subjected to inventory reviews in accordance with DOE
                     policy;

                  2. Livermore transfers the ownership of all SCAT classified
                     desktop computers to the appropriate DOE sites and
                     organizations; and

                  3. Steps are taken to ensure that classified media is immediately
                     controlled upon being designated as classified.

MANAGEMENT        On November 18, 2003, the Associate Administrator for
COMMENTS          Management and Administration, National Nuclear Security
                  Administration, provided written comments on our draft inspection
                  report. The Associate Administrator’s verbatim response is
                  included as Appendix B to this report. Management agreed with
                  the report findings and recommendations and identified corrective
                  actions taken or planned relating to the recommendations.

INSPECTOR         We consider management’s comments and actions regarding
COMMENTS          the findings and recommendations contained in our report to be
                  responsive.




Page 5                                                     Recommendations
                                          Management and Inspector Comments
Appendix A

SCOPE AND     We conducted the fieldwork portion of our review during
METHODOLOGY   January 2003 to June 2003. Our review included interviews with
              officials from the Livermore Site Office and Lawrence Livermore
              National Laboratory. In addition, we conducted inventory
              verification of a judgmental sampling of classified desktop
              computers. We also reviewed applicable policies and procedures
              and other records regarding property management and computers,
              including:

              •   Livermore Management and Operating Contracts.

              •   DOE Property Management Regulations, Title 41 Code of
                  Federal Regulations, Chapter 109.

              •   Livermore Property Management Policies and Procedures.

              •   DOE M 471.2-1C, Classified Matter Protection and Control
                  Manual, Approved 4-17-01.

              •   DOE M 471.2-2, Classified Information Systems Security
                  Manual, dated 8-3-99.

              •   Livermore’s Classified Document User’s Manual, dated
                  October 2002.

              •   Livermore’s Accountable Documents and Media Procedures,
                  dated September 2000, Revised March 11, 2002.

              •   Livermore’s General Plan 4001 v1.3, General Computer
                  Security Plan for PL-1 Multiple User Classified Systems, dated
                  July 30, 2002.

              •   Livermore’s Policy 4303 v4.3, Classified – Single User Stand
                  Alone (SUSA) Security Plan, dated July 24, 2002.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                                Scope and Methodology
Appendix B




Page 7       Management Comments
                         National Nuclear Security Administration
                                   Management Decision
                          to the Inspector General’s Draft Report
                “Inspection of Internal Controls Over Classified Computers
                          and Classified Removable Media at the
                        Lawrence Livermore National Laboratory”


We recommend that the Manager, Livermore Site office, ensure that:

Recommendation 1

      All NEST classified computer equipment and removable media are subjected to inventory
      reviews in accordance with DOE policy

      Management Decision

      Concur

      While the LLNL NEST Team has been very diligent in checking and inventorying their
      equipment, the inventories have not been performed using the two-person rule as required
      by DOE security policy. LLNL NEST personnel have been conducting weekly
      inventories in conjunction with their requirement to test the computer equipment. There
      are 177 inventory sheets covering the time period of January 2002 through October 2003.
       However, the form of the inventories was not one that led to an easy inspection because
      of changes in the format of the inventory checklist and multiple inventory locations.
      Some of the items had also been deployed to Kirtland Air Force Base, but the
      accompanying receipts were not stapled to the inventory sheet.

      In addition, the draft report mentions that two NEST classified removable media were not
      being inventoried at all. In fact, the media was being inventoried annually and did not
      contain any sensitive data. This media will now be included in the future monthly
      inventories.

      Currently, LLNL is inventorying NEST computers and removable classified media using
      the two person rule. After the OIG exit conference, the LLNL Classified Matter
      Protection and Control Manager reviewed all of the inventory files and designed a new
      checklist that enables someone to easily verify the items being inventoried. It will be
      used for the next monthly inventory. LLNL NEST computer security will now validate
      that monthly inventories have been completed. NNSA LSO will validate that these
      corrective actions are in place by December 7, 2003.


Page 8                                                                Management Comments
__________________________________________________________________

                                                                                  2

Recommendation 2

      Livermore transfers the ownership of all SCAT classified desktop
      computers to the appropriate DOE sites and organizations.

      Management Decision

      Concur

      This discrepancy was apparently due to an oversight on the part of the
      LLNL property representative. LLNL has since transferred ownership of
      these computers to the appropriate DOE sites and organizations. The
      LLNL Property Manager met with the property representative involved in
      the transfer to coach the employee on property transfer procedures. We
      consider the actions taken responsive and complete.

Recommendation 3

      Steps are taken to ensure that classified media is immediately controlled
      upon being designated as classified.

      Management Decision

      Concur

      This issue led to NNSA LSO issuing the following finding to LLNL in
      May 2003: LLNL Classified Matter Protection and Control practices do
      not ensure that all classified removable media are subjected to
      accountability controls as required. LLNL accountability processes do not
      address all material that should be accounted for and inventoried (03-
      LLNL-IS.2-001). Corrective Actions included:

      •   A wall to wall assessment was completed on March 28, 2003 to
          identify if additional items were not in accountability. LLNL will
          conduct another wall to wall assessment in June 2004.

      •   A working group was formed by the LLNL Director’s Office to
          identify and address root causes. A final report was delivered to LSO
          on June 10, 2003.



__________________________________________________________________
Page 9                                      Management Comments
                                                                                           3

          •   Local operating plans were developed covering issues related to training
              requirements and notification to employees of local processes developed to
              ensure classified removable media were placed into accountability. Full
              implementation of these plans is expected by November 21, 2003.




Page 10                                                     Management Comments
                                                                    IG Report No. DOE/IG-0628
                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:


1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.

Name                                          Date
Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:


                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585


                                  ATTN: Customer Relations
If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                           http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
